No. 20-138

 

 

IN THE
Supreme Court of the United States

DONALD J. TRUMP, PRESIDENT OF THE
UNITED STATES, et al.,

Petitioners,
v.

SIERRA CLUB, et al,
Respondents.

On Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

BRIEF OF TOHONO O’ODHAM NATION
AS AMICUS CURIAE
IN SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,869 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 19, 2021.

 

Colin Casey Mogan
Wilson-Epes Printing Co., Inc.
